    March 10, 2006




Financial Management

Report on Internal Controls Over
Departmental Expenditure
Operations at Defense Finance and
Accounting Service Indianapolis
(D-2006-063)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DCAS                  Defense Cash Accountability System
DFAS                  Defense Finance and Accounting Service
DFAS-IN               Defense Finance and Accounting Service Indianapolis
FMR                   Financial Management Regulation
HQARS                 Headquarters Accounting and Reporting System
SOT                   Statement of Transactions
TBO                   Transactions by Others
TFO                   Transactions for Others
TI                    Treasury Index
UMD                   Unmatched Disbursement
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                         March 10,2006
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
SUBJECT: Report on Internal Controls Over Departmental Expenditure Operations
         at Defense Finance and Accounting Service Indianapolis
         (Report No. D-2006-063)

      We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Carrnelo G. Ventimiglia at (317) 5 10-3855 (DSN 699-3855) or Mr. Stephen C.
Borushko at (3 17) 5 10-3848 (DSN 699-3848). For the report distribution, see
Appendix E. The team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                        Paul   ha net to, CPA
                                      Assistant Inspector General
                                      Defense Financial Auditing
                                                Service
                Department of Defense Office of Inspector General
Report No. D-2006-063                                                    March 10, 2006
   (Project No. D2005-D000FI-0195.000)

      Internal Controls Over Departmental Expenditure Operations
         at Defense Finance and Accounting Service Indianapolis

                                  Executive Summary

Who Should Read This Report and Why? DoD and Army financial management
personnel responsible for promoting proper financial management and preparing
financial statements, other DoD personnel responsible for fund control, and Defense
Finance and Accounting Service Indianapolis personnel responsible for expenditure
reporting operations should read this report. The report discusses the adequacy of
internal controls over departmental expenditure operations at the Defense Finance and
Accounting Service Indianapolis.

Background. The Defense Finance and Accounting Service provides finance and
accounting support for DoD. The Defense Finance and Accounting Service Indianapolis,
Expenditure and Reporting Division collects, adjusts, and compiles financial data for all
collections and disbursements made by disbursing stations in the Defense Finance and
Accounting Service Indianapolis network. Disbursement and collection processes
include Cross Disbursing In, Cross Disbursing Out, Transactions by Others, and
Transactions for Others.

Results. Defense Finance and Accounting Service Indianapolis did not fully adhere to
DoD policy for clearing unresolved transactions and did not ensure the proper resolution
of disbursement transactions more than 6 months old. Until Defense Finance and
Accounting Service Indianapolis corrects identified problems, the risks of fraudulent or
illegitimate transactions going undetected and inaccurate or incomplete accountability
over unobligated balances for Treasury Index 21 appropriations are increased. The
Director of Defense Finance and Accounting Service Indianapolis should improve
internal controls over clearing departmental expenditure transactions by enforcing DoD
Financial Management Regulation policies, separating expenditure functions for both
Army and Defense agencies, establishing performance metrics with monthly reviews of
uncleared transactions, and updating the Internal Control Program self-evaluation for the
Expenditure and Reporting Division. (See the Finding section for the detailed
recommendations.)

Management Comments. The Defense Finance and Accounting Service Director for
Indianapolis Operations concurred with the recommendations. The Director for
Indianapolis Operations stated that additional expenditure functions were transferred to
Defense Agencies Indianapolis Operations. The Director also stated that field accounting
sites will be monitored on compliance with overaged disbursement policy, alternative
clearance actions will be performed when necessary, and the self-evaluation of the Cross
Disbursing In Branch assessable unit will be reviewed and updated. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.
Table of Contents

Executive Summary                                                              i

Background                                                                    1

Objective                                                                     2

Managers’ Internal Control Program                                            2

Finding
     Internal Controls Over Departmental Expenditure Transaction Clearances   4

Appendixes
     A. Scope and Methodology                                                 15
         Prior Coverage                                                       16
     B. Glossary of Terms                                                     17
     C. Transaction Clearing                                                  19
     D. Fund Balance With Treasury                                            23
     E. Report Distribution                                                   24

Management Comments
     Defense Finance and Accounting Service                                   27
Background
     The Defense Finance and Accounting Service (DFAS) provides finance and
     accounting support for DoD and its entities. The Expenditure and Reporting
     Division in the Directorate for Departmental Accounting, DFAS Indianapolis
     (DFAS-IN) is responsible for performing centralized expenditure accounting,
     reporting, analysis, reconciliation, and reporting of funds for Department of
     Treasury. Disbursement and collection processes include Cross Disbursing In,
     Cross Disbursing Out, Transactions by Others (TBO), and Transactions for
     Others (TFO). See Appendix B for a glossary of terms used in this report.

     For May 2005, the Expenditure and Reporting Division processed disbursement
     transactions totaling approximately $16.2 billion. Approximately $12.7 billion of
     the $16.2 billion pertained to Army (Treasury Index [TI] 21) appropriations. The
     Expenditure and Reporting Division also processed Army collection transactions
     totaling $1.8 billion.

Departmental Expenditure Operations
     Within the DFAS-IN network, departmental expenditure operations apply
     specifically to Army General Fund financial reporting. TI 21 appropriations are
     relevant to the Army General Fund financial statements. The DFAS-IN network
     also processes Office of the Secretary of Defense (TI 97) appropriations that are
     reported on the DoD agency-wide financial statements. See Appendix C for
     further discussion on expenditure transactions and how DFAS-IN clears
     expenditure transactions. Appendix D discusses the effect of departmental
     expenditure operations on the reporting of Fund Balance with Treasury on the
     Army General Fund financial statements.

Criteria
     DoD Financial Management Regulation. DoD Regulation 7000.14-R, “DoD
     Financial Management Regulation,” (FMR), volume 3, chapter 11, “Unmatched
     Disbursements, Negative Unliquidated Obligations, In-Transit Disbursements,
     and Suspense Accounts,” January 2001, prescribes standards and requirements to
     establish and maintain financial control over disbursements, collections, and
     adjustments affecting fund balances with the Treasury and cash resources not part
     of Fund Balance with Treasury. The DoD FMR also sets requirements for
     researching and correcting in-transit disbursements and managing and
     establishing obligations for unmatched disbursements (UMDs) and negative
     unliquidated obligations.

     DFAS Indianapolis Regulation. DFAS-IN Regulation 37-1, “Finance and
     Accounting Policy Implementation,” implements DoD FMR policy and other
     higher-level criteria, as it pertains to the DFAS-IN network.




                                         1
            Chapter 19, “In-Transit Disbursements,” March 2003. Chapter 19
    identifies DFAS-IN responsibilities regarding the control of cross-disbursements
    and TBO/TFO transactions until clearance. Specifically, chapter 19 establishes
    requirements for:

                   •   processing, managing, and clearing TBO/TFO transactions;

                   •   processing cross-disbursements;

                   •   processing chargebacks; and

                   •   discontinuing research for in-transit transactions.

           Chapter 27, “TBO/TFO Transaction Reviews,” March 2002.
    Chapter 27 discusses the various analyses, reviews, and reconciliations that are
    necessary to maintain the accuracy and integrity of the accounting process.
    Section 2711 requires accounting stations to reconcile all cross-disbursing and
    TBO/TFO transmittals and transactions using accounting system output. The
    reconciliations should include the analysis of prior month errors and the
    monitoring and clearing of suspended TBO transactions.


Objective
    Our audit objective was to evaluate the adequacy of internal controls over
    departmental expenditure operations at DFAS-IN. We also reviewed the
    managers’ internal control program as it related to the audit objective. See
    Appendix A for a discussion of the scope and methodology and for prior coverage
    related to the objective.


Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management (internal) controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of the controls.
    We evaluated the DFAS-IN internal controls over departmental expenditure
    operations. Specifically, our review focused on the Analysis and Reconciliation
    and the Expenditure and Reporting Divisions within the Directorate for
    Departmental Accounting. We reviewed the adequacy of management’s self-
    evaluation of controls over adhering to DoD policy for clearing disbursement
    transactions and ensuring the proper resolution of disbursement transactions.

    The Cross Disbursing In Branch in the Expenditure and Reporting Division
    manages and reconciles the Statement of Transactions (SOT) and detail-level
    information from other DoD offices and non-DoD agencies. The Cross


                                         2
Disbursing In Branch assessable unit’s self-evaluation did not identify or report
its failure to fully adhere to DoD policy for clearing unresolved transactions or for
ensuring the proper resolution of disbursement transactions more than 6 months
old. Although this may not be a material internal control weakness as defined by
DoD Instruction 5010.40, the policy requires accurate self-evaluations.
Recommendations 1, 2, and 3, when implemented, will correct the internal control
weakness. Recommendation 4 provides for more accurate assessment and
reporting of internal controls within the Cross Disbursing In Branch. The Finding
section of this report discusses the details of the weakness and the adequacy of
management’s self-evaluation process.




                                      3
           Internal Controls Over Departmental
           Expenditure Transaction Clearances
           DFAS-IN did not fully adhere to DoD policy for clearing unresolved
           transactions and did not ensure the proper resolution of disbursement
           transactions more than 6 months old. This occurred because DFAS-IN did
           not establish the internal control structure needed to ensure that Army
           departmental expenditure transactions were cleared in accordance with
           prescribed policy. In addition, the failure to separate the Army General
           Fund expenditure function from the Defense agency expenditure function
           unnecessarily complicated the management, control, and clearance of
           disbursement transactions. Until DFAS-IN corrects these problems, the
           risks of fraudulent or illegitimate transactions going undetected and
           inaccurate or incomplete accountability over unobligated balances for
           TI 21 appropriations are increased. The Fund Balance with Treasury line
           on the Balance Sheet and the required note disclosures may also be
           misstated.


Uncleared Transactions
    Clearance Policy. The DoD FMR requires that a disbursement be matched to its
    corresponding detail-level obligation and recorded in the accounting records as
    promptly as current systems and business practices reasonably permit. TBO/TFO
    transactions generally should be cleared by 6 months after the disbursement date.
    Cross-disbursing transactions should be cleared by 8 months after the
    disbursement date. DFAS policy allows an additional 2 months for the submitting
    DFAS Accounting Centralized Field Site (also referred to as a DFAS Center) to
    provide supporting documentation for cross-disbursing transactions. Therefore,
    the DFAS Accounting Centralized Field Site should take alternative clearance
    actions after 6 months for TBO/TFO transactions and 8 months for cross-
    disbursing transactions. See Appendix C for additional information on how
    DFAS-IN clears expenditure transactions.

    Transaction Files. DFAS-IN maintained separate local data files for uncleared
    cross-disbursing and TBO/TFO transactions. The files included the C5BS file for
    cross-disbursing transactions more than 8 months old and the Uncleared File for
    all uncleared TBO/TFO transactions. The data files were not used for external
    reporting. The data files contained:

           •   TI 21 transactions submitted by accounting stations within the
               DFAS-IN network,

           •   TI 21 transactions submitted by accounting stations outside the
               DFAS-IN network,




                                        4
        •   TI 97 transactions submitted by accounting stations within the
            DFAS-IN network that only affected TI 97 Defense agencies, and

        •   TI 97 transactions submitted by accounting stations outside the
            DFAS-IN network that only affected TI 97 Defense agencies.

The May 2005 cross-disbursing and TBO/TFO data files contained 22,536 TI 21
and TI 97 transactions that had not cleared within 6 months of the disbursement
date. Some transactions dated back to FY 1995. See Table 1 for additional
information on uncleared transactions citing TI 21 and TI 97 appropriations. The
responsibility for clearing these transactions falls under both DFAS-IN and
DFAS Columbus.

   Table 1. Uncleared Transactions Citing TI 21 and TI 97 Appropriations
                                            Summary to Detail Variance
                          Number of        Net Value       Absolute Value
  Type of Transaction    Transactions     ($ millions)1     ($ millions)
 Not Allocated to the           5,924         $( 1,933.7)        $ 41,731.0
 Army2
 Air Force3                     2,742               (1.4)           1,886.1
 Navy3                          9,610              102.5            1,777.5
                  4
 State Department               2,093                2.8              464.9
 Treasury4                         79                1.8            1,642.8
 Central Disbursing               564                9.9               11.3
 Services, Indianapolis5
 Defense Agencies6                344              (16.9)              25.8
 Other7                         1,180              (21.6)              68.9
  Total                        22,536         $( 1,856.6)        $ 47,608.3
 1
 Dollar values in parentheses indicate that the value of total clearing records exceeds the value of
 total charge records for a particular type of transaction.
 2
 Transactions under the accounting control of DFAS Denver or DFAS Cleveland that were
 reported to DFAS-IN for the sole purpose of keeping the Army departmental books current.
 DFAS-IN only had to post transactions to the accounting records.
 3
 Cross-disbursing transactions paid by DFAS Denver and DFAS Cleveland, and then submitted
 to DFAS-IN.
 4
 The State Department and Treasury submit transactions directly to DFAS-IN.
 5
 Central Disbursing Services, Indianapolis, submits transactions on behalf of the accounting
 stations it services.
 6
 Transactions for Defense agencies that were not under the accounting control of DFAS-IN. The
 Expenditure and Reporting Division did not have the responsibility for clearing these
 transactions. DFAS Columbus had responsibility for clearing these transactions.
 7
 Disbursing stations within the DFAS-IN network not aligned with Central Disbursing Services,
 Indianapolis.




                                            5
Internal Control Procedures
    DFAS-IN did not ensure that all TBO/TFO transactions cleared within 6 months
    of the disbursement dates and that all cross-disbursing transactions cleared within
    8 months of the disbursement dates. This occurred because DFAS-IN failed to
    perform the corrective actions for transactions not clearing through automated
    processes. Specifically, DFAS-IN did not have the internal controls necessary to
    ensure that all expenditure transactions were cleared in a timely manner. The lack
    of a separate expenditure operations function for the Army General Fund also
    unnecessarily complicated the management, control, and clearance of TBO/TFO
    and cross-disbursing transactions. In addition, DFAS-IN did not take advantage
    of other alternative clearing actions when transactions were not cleared through
    established automated procedures or by SOT-to-detail variance reconciliations.

    Reconciliations. DFAS-IN did not adequately reconcile monthly SOT-to-detail
    variances on cross-disbursing transactions as required and did not perform the
    research needed to match SOT-to-detail variances. Reconciliations of
    SOT-to-detail variance-level transaction data in accordance with the DoD FMR
    and DFAS-IN Regulation 37-1 would have reduced or eliminated uncleared
    transactions. DFAS-IN had not placed sufficient emphasis on reconciling
    SOT-to-detail variances. As a result, SOT and detail information for
    disbursements made before November 2001 lost its identity when automatically
    transferred from the cited appropriation to a suspense account. This action made
    reconciling disbursements that had been made before November 2001 more
    difficult and time-consuming.

    The timely completion of SOT-to-detail variance reconciliations should often be
    sufficient to clear expenditure transactions not cleared through normal automated
    processes. By not performing complete reconciliations in a timely manner,
    DFAS-IN:

           •   allowed its cross-disbursing data file to expand to a level that required
               a significant amount of effort to clear the transactions,
           •   was unable to determine which expenditure transactions could not be
               cleared,

           •   was unable to perform clearance actions that may have affected the
               unobligated balance of some Army appropriations, and

           •   increased the risk of causing future Antideficiency Act violations in
               affected appropriations.

    Uncleared TBO/TFO transactions older than 6 months and cross-disbursing
    transactions older than 8 months indicated that designed reconciliation processes
    did not work and alternative clearing actions were necessary. DFAS-IN should
    perform a monthly review and reconciliation of all uncleared transactions and
    ensure the appropriate resolution of expenditure transactions more than 6 months
    old.



                                         6
            Responsibility for Clearing Cross-Disbursing Transactions. The dual
            responsibility for clearing TI 97 transactions submitted by accounting stations
            outside the DFAS-IN network unnecessarily complicated DFAS-IN efforts to
            clear TI 21 expenditure transactions. DFAS-IN had the dual responsibility for
            managing and clearing both TI 21 and TI 97 cross-disbursing transactions.
            Managing and clearing TI 97 transactions should be the responsibility of the
            DFAS Director of Accounting Services for Defense Agencies. To assist in the
            timely clearance of both TI 21 and TI 97 expenditure transactions, DFAS-IN
            should coordinate with the Director of Accounting Services for Defense Agencies
            to establish and maintain separate expenditure functions for Army departmental
            expenditure operations and Defense agency expenditure operations.

            Use of Alternative Clearance Actions. DFAS-IN did not take appropriate
            alternative clearance actions to resolve TBO/TFO transactions more than
            6 months old and cross-disbursing transactions more than 8 months old.
            Transactions not cleared through established automated procedures or by
            reconciling SOT-to-detail variances must be cleared in another manner. As
            provided in the DoD FMR and DFAS-IN Regulation 37-1, alternate clearance
            actions available to DFAS-IN included establishing obligations of overaged
            UMDs, using chargebacks, and discontinuing research when adequately justified.
            As of May 31, 2005, DFAS-IN had not performed alternative clearing actions or
            transferred accounting responsibility for 15,583 of the 22,536 transactions. 1 We
            identified 1,571 transactions that could have been resolved through specific
            alternative clearance actions. DFAS-IN should determine the appropriate
            alternative clearance action for each of the remaining 14,012 transactions based
            on which accounting station submitted the transaction, when the transaction was
            submitted, what the transaction pertains to, and what actions have already been
            taken to clear the transaction. Submitting uncleared transactions as part of a
            discontinued research package should only be considered when all other available
            clearance actions are unsuccessful. See Table 2 for a further breakdown of the
            number of uncleared transactions requiring alternative clearance actions.

                      Table 2. Uncleared Transactions Requiring Alternative Clearance
                                           Actions as of May 31, 2005
                     Alternative Action                   Number of Transactions
                     Establishing Obligations for UMDs                   79
                     Chargebacks                                      1,492
                     Potential Discontinued Research                14,012
                      Total                                         15,583

            The proper use of alternative clearance actions would clear transactions from the
            data files and reduce or eliminate the need for the C5BS file. The use of



1
    The 15,583 transactions were subject to alternative clearance actions. DFAS-IN could not have taken
    alternative clearance actions for the other 6,953 transactions (5,924 transactions that were not allocated to
    the Army and 344 that originated from Defense agencies). The total also does not include 685 Foreign
    Military Sales transactions not subject to chargeback or discontinued research requirements.



                                                         7
alternative clearance actions can also help prevent future Antideficiency Act
violations in affected TI 21 appropriations by the proper recording of transactions
affecting the unobligated account balances.

        Establishing Obligations for Overaged Unmatched Disbursements.
DFAS-IN did not establish obligations for 79 UMDs more than 6 months old,
affecting 22 TI 21 appropriations. Table 3 identifies the number and net dollar
value of overaged UMDs for which DFAS-IN had not established obligations.

                       Table 3. Unmatched Disbursements
       Appropriation             Number of
       (TI FY Symbol)           Transactions                 Net Value1
         21-0-2020                     6                    $ 24,184.00
         21-0-2033                     1                          (32.00)
         21-0-2035                     4                        6,482.01
         21-0-2040                     1                       24,365.00
         21-1-2020                     1                       14,820.47
         21-1-2040                     2                      (57,079.06)
         21-1-2065                     4                        4,485.03
         21-2-2033                     1                      (49,428.76)
         21-2-2040                     1                     166,295.16
         21-2-2050                     2                       10,407.17
         21-2-2065                     3                       15,363.05
         21-2-2085                     3                    (365,094.49)
         21-2-2086                     1                        9,964.00
         21-3-2020                     9                       56,216.30
         21-3-2040                     4                       46,240.20
         21-3-2060                     1                        2,344.89
         21-3-2065                     8                      (17,063.74)
         21-3-2085                     1                       39,402.00
         21-4-1081                     2                         (842.44)
         21-4-2020                   12                        66,295.36
         21-4-2060                     1                       (3,824.35)
         21-4-2065                   11                     (217,114.28)
           Total                     79                    $(223,614.48)
    1
      Dollar values in parentheses indicate that the unobligated balance would
      be adjusted upward once all transactions have been posted. Dollar
      values not in parentheses indicate that the unobligated balance would
      be adjusted downward once all transactions have been posted.
      Obligations should be established for all transactions at the
      appropriation level, regardless of the net value.

Because these UMDs were not established as obligations in the charged
appropriations, as required in the DoD FMR, the unobligated balances of the
appropriations were misstated by the amounts that should have been obligated.
DFAS-IN should establish obligations for all overaged UMDs.

                                     8
        Use of Chargebacks. DFAS-IN did not charge back eligible uncleared
disbursements made before September 1, 2004. As of May 31, 2005, DFAS-IN
had not charged back 1,059 eligible TI 21 transactions originally submitted by
DFAS Denver and DFAS Cleveland, some of which dated back to FY 1995.
DFAS-IN also had not charged back 433 TI 97 transactions submitted by DFAS
Denver and DFAS Cleveland with Army appropriation limits, some of which
dated back to FY 1995. See Table 4 for information on the TI 21 and TI 97
transactions that should have been charged back to Air Force and Navy disbursing
stations.

          Table 4. TI 21 and TI 97 Transactions Not Charged Back
                                                 SOT-to-Detail Variance
                Treasury     Number of          Net Value     Absolute Value
   Submitter     Index      Transactions      ($ thousands)    ($ thousands)
   Air Force          21             177           $( 79.4)        $107,186.1
   Air Force          97              25              (200.9)           908.6
   Navy               21             882             7,463.2        133,042.2
   Navy               97             408            (6,989.9)        53,718.4
    Total                          1,492           $ 193.0         $294,855.4

By not charging these transactions back to the submitting Air Force and Navy
disbursing stations in accordance with the DoD FMR, DFAS-IN risks inaccurate
and incomplete reporting of the unobligated balance for each appropriation.
DFAS-IN should charge back all eligible transactions to the submitter.

        Use of Discontinued Research Packages. DFAS-IN did not request
authority from the Assistant Secretary of the Army (Financial Management and
Comptroller) or from the funded budget office to discontinue research on as many
as 14,012 transactions, with a net value of approximately $99.9 million, that could
not first be cleared in any other manner. In FY 2005, DFAS-IN prepared one
discontinued research package that covered multiple F3880 (Check Cancellations
and Overpayments) appropriations. This package cleared 765 transactions dated
from FY 1990 through FY 2004, netting approximately $487,000. The Deputy
Assistant Secretary of the Army (Financial Operations) approved the package on
September 30, 2005. DFAS-IN should identify all transactions that cannot be
cleared by other means, prepare additional discontinued research packages for
Army-funded appropriations, and request approval to discontinue research on
these transactions.

Tracking Progress. DFAS-IN had not effectively monitored the use of
alternative clearance methods. The existence of uncleared transactions more than
6 months old raises questions about the legitimacy of disbursements previously
reported on the SOT and allows for the possibility of fraudulent transactions
going undetected. It also increases the risk of multiple disbursements being made
for the same obligation, resulting in an increased risk of negative unliquidated
obligations and potential Antideficiency Act violations in TI 21 appropriations.
Compliance with the DoD FMR is crucial to ensuring that expenditure
transactions are properly cleared and to minimizing the potentially adverse effect


                                     9
    that uncleared transactions have on Army General Fund financial reporting.
    DFAS-IN should establish and use a performance metric to monitor compliance
    with policy regarding the clearance of expenditure transactions more than
    6 months old.


Adequacy of Management’s Self-Evaluation
    The assessable unit manager in the Cross Disbursing In Branch did not accurately
    complete the FY 2005 program evaluation matrix related to two major functions
    required to validate and certify established internal controls. The Cross
    Disbursing In Branch was one of the three assessable units in the Expenditure and
    Reporting Division. The evaluation matrix provides a structured tool to identify
    control objectives, control techniques, associated risks, and evaluation
    frequencies for each business process and function. Although the self-evaluation
    of the Cross Disbursing In Branch assessable unit identified the control objective
    of reconciling summary SOT-to-detail transactions, the self-evaluation did not
    report the failure to complete the reconciliations. The self-evaluation of the Cross
    Disbursing In Branch assessable unit showed the following information.

           Major Function Number 2, “Reconcile summary Statement of
           Transactions extracts to detail transactions,” Goal (C) stated that the
           Branch will initiate a chargeback when detail to summary differences are
           not resolved within the established time frame and that risks of non-
           compliance are misstated cash, erroneous charges, and loss of funds. The
           evaluation of the Control Standards and Evaluation Method stated, “No
           material weakness found.”

           Major Function Number 3, “Initiate corrective action and follow up
           resolution of missing, erroneous, suspense, and rejected cross
           disbursement transactions,” had five relevant self-evaluation goals. They
           were: (A) Research missing, erroneous, and rejected cross-disbursing
           transactions promptly; (B) Determine the validity of the missing,
           erroneous, and rejected transactions; (C) Initiate a chargeback when not
           resolved within established time frames; (D) Analyze rejected cross
           disbursement transactions; and (E) Ensure follow-up actions are
           monitored and resolved promptly. The evaluation of the Control
           Standards and Evaluation Method for each goal stated, “No material
           weakness found.”

    In FY 2005, the Cross Disbursing In Branch assessable unit should have
    appropriately recognized its failure to identify and fully adhere to DoD policy for
    clearing unresolved transactions. Based on the audit results, the potential of
    material misstatement of cash and loss of funds and the impact on Fund Balance
    with Treasury was not fully considered. DFAS-IN should update the self-
    evaluation of the Cross Disbursing In Branch assessable unit to reflect these
    conditions. DFAS-IN should also evaluate these conditions to determine whether
    they meet the criteria for a material weakness as stated in DoD
    Instruction 5010.40, “Management Control (MC) Program Procedures,”



                                         10
    August 28, 1996. If the conditions meet the criteria, then DFAS-IN should report
    it in its Annual Statement of Assurance.


Process Improvements
    DFAS-IN Actions. During the audit, the DFAS-IN Expenditure and Reporting
    Division initiated process improvements to correct some of the problems in
    processing departmental expenditure transactions. Specifically, since May 31,
    2005, the Division has:

           •   placed stronger emphasis on reconciling cross-disbursing transactions
               more than 8 months old,

           •   begun reconciling aged cross-disbursement transactions and removing
               those transactions from the cross-disbursing data files,

           •   begun taking steps to remove any cross-disbursing transactions not
               allocated to the Army from the cross-disbursing data files,

           •   established stronger working relationships with accounting personnel
               in the State Department,

           •   assigned additional personnel to assist in clearing transactions citing
               TI 97 appropriations, and

           •   obligated aged Foreign Military Sales transactions transacted prior to
               April 1994 against FY 2005 appropriations and removed them from
               the TBO/TFO Uncleared File.

    TBO/TFO and Cross-Disbursing Data Files. The number and dollar value of
    uncleared TBO/TFO and cross-disbursing transactions decreased since the
    May 2005 processing cycle. From May through October 2005, the number of
    uncleared transactions (records) in the TBO/TFO Uncleared and C5BS files
    decreased from 22,536 to 15,861. Specifically:

           •   From May through October 2005, the total number of records in the
               TBO/TFO Uncleared File decreased from 9,718 to 8,656,
               approximately 11 percent. The absolute value of the differences
               between the charge records and the clearance records decreased from
               $288.5 million to $187.0 million, approximately 35 percent. The
               October file also indicated a reduction of 16 overaged Foreign Military
               Sales transactions transacted prior to April 1994, with an absolute
               value of approximately $618,000.

           •   Total records in the C5BS file decreased from 12,818 in May 2005 to
               7,205 in October 2005, approximately 44 percent. The absolute value
               of the SOT-to-detail difference also decreased from $47.3 billion to
               $26.9 billion, approximately 43 percent.



                                        11
   Defense Cash Accountability System. In addition, the Defense Cash
   Accountability System (DCAS) Work-in-Process Team, within the Expenditure
   and Reporting Division, has proposed revising the DCAS Standard Operating
   Procedure. The revision would allow a DFAS Accounting Centralized Field Site
   to initiate a chargeback for summary out-of-balance cross-disbursing transactions
   between 4 and 12 months old. A DFAS Accounting Centralized Field Site must
   now wait until the transactions are between 6 and 12 months old to initiate a
   chargeback. The effect would be to reduce the likelihood of transactions being
   placed in the unreconciled cross-disbursing data file for transactions more than
   8 months old.


Summary
   The Expenditure and Reporting Division did not clear transactions that ultimately
   affect the Fund Balance with Treasury account balance on the financial statements
   in accordance with prescribed policy. By not properly clearing unresolved
   disbursement transactions within prescribed timeframes, DFAS-IN subjected the
   unobligated balances of Army appropriations to misstatement and possible
   Antideficiency Act violations, increased the risk of fraudulent or illegitimate
   transactions going undetected, and potentially subjected the Fund Balance with
   Treasury line on the financial statements to material misstatement. DFAS-IN has
   initiated actions to correct problems with uncleared expenditure transactions.
   However, additional work needs to be done in order to clear all expenditure
   transactions more than 6 months old and to develop internal controls that ensure
   all future expenditure transactions are cleared in accordance with the DoD FMR
   and DFAS-IN Regulation 37-1. Additionally, DFAS needs to address the
   weakness in the self-evaluation of the Cross Disbursing In Branch assessable unit
   of the DFAS managers’ internal control program.




                                      12
Recommendations and Management Comments
    We recommend that the Director of Defense Finance and Accounting Service
    Indianapolis:

           1. In conjunction with the Director of Accounting Services for
    Defense Agencies, establish and maintain separate expenditure functions for
    Army General Fund expenditure operations and Defense agency expenditure
    operations.

            Management Comments. The Defense Finance and Accounting Service
    Director for Indianapolis Operations concurred and stated that the Transactions by
    Others and Transactions for Others functions were transferred to the Fund
    Balance With Treasury Division in FY 2004, and the Army Expenditure Division
    transferred additional expenditure functions to the Defense Agencies Indianapolis
    Operations beginning in January 2006.

           2. Perform a monthly review and reconciliation of uncleared
    transactions and ensure the appropriate resolution of Transactions by
    Others and Transactions for Others more than 6 months old and cross-
    disbursing transactions more than 8 months old. Specifically, enforce the
    DoD Financial Management Regulation policy to:

                 a. Establish obligations for overaged unmatched
    disbursements.

                 b. Charge back all disbursement transactions to submitters
    who have not provided sufficient information to clear transactions.

                  c. Request approval from the proper authority to discontinue
    research on all transactions that cannot be cleared in any other manner.

            Management Comments. The Defense Finance and Accounting Service
    Director for Indianapolis Operations concurred and stated that the Director of
    Accounting Operations will monitor the field site accounting offices to ensure
    that they establish obligations for overaged disbursements. The Defense Finance
    and Accounting Service Director for Indianapolis Operations stated that the
    Directorate for Departmental Accounting will take all necessary actions to
    process overaged disbursements and will request approval from the proper
    authority to discontinue research on all transactions that cannot be obligated or
    cleared in any other manner. The Director also stated that the Defense Finance
    and Accounting Service Indianapolis has become more aggressive in processing
    chargebacks to submitters in accordance with regulatory guidance and is
    progressing toward completing the current backlog. The estimated completion
    date is December 31, 2006.

           3. Establish and use management performance metrics to monitor
    compliance with the DoD Financial Management Regulation and Defense
    Finance and Accounting Service Regulation Indianapolis 37-1 applicable to
    clearing disbursement transactions more than 6 months old.


                                        13
        Management Comments. The Defense Finance and Accounting Service
Director for Indianapolis Operations concurred and stated that the Director of
Accounting Operations uses the Office of the Secretary of Defense problem
disbursement performance metric to measure and manage the clearing of
disbursements more than 6 months old. The Director for Indianapolis Operations
also stated that the Expenditure Division has developed additional management
oversight tools to strengthen the monitoring of uncleared transactions, including a
report of all uncleared disbursements more than 120 days old and a report of
cross-disbursing transactions by age category.

        4. Update the self-evaluation of the Cross Disbursing In Branch
assessable unit in the Expenditure and Reporting Division to reflect the
conditions described in this finding. Determine whether the conditions meet
the criteria for a material weakness as stated in DoD Directive 5010.38,
“Management Control Program,” August 26, 1996, and DoD
Instruction 5010.40, “Management Control (MC) Program Procedures,”
August 28, 1996. If the conditions meet the criteria for a material weakness,
report it in the Annual Statement of Assurance.

         Management Comments. The Defense Finance and Accounting Service
Director for Indianapolis Operations concurred and stated that the self-evaluation
of the Cross Disbursing In Branch assessable unit will be reviewed and updated to
reflect the remaining conditions. The estimated completion date is May 31, 2006.




                                    14
Appendix A. Scope and Methodology
   DFAS-IN expenditure operations occur on a monthly cycle. We used expenditure
   data generated during the May 2005 monthly cycle to test the internal control
   structure surrounding cross-disbursing and TBO/TFO operations. However,
   because we did not review the processes used by DFAS field accounting stations
   to accumulate, process, and report monthly expenditure data to DFAS-IN, we
   were unable to draw any conclusions regarding the quality and reliability of the
   May 2005 data submitted to DFAS-IN for consolidation and reporting. We also
   did not review any of the processes regarding interfund reporting within
   DFAS-IN.

   We examined the DFAS-IN processes used to accumulate and process Army
   departmental cross-disbursing and TBO/TFO transactions. We examined how
   cross-disbursing and TBO/TFO transactions were cleared and the DFAS-IN
   actions taken to clear previously unresolved transactions. We reviewed the
   May 2005 “C5AS” and “C5BS” data files and the “TBO/TFO Uncleared File” for
   cross-disbursing and TBO/TFO expenditure transactions not processed within the
   timeframes prescribed by DoD and DFAS policy. We examined how cross-
   disbursing and TBO/TFO transaction data were used in required problem
   disbursement reporting and their effect on overall Fund Balance with Treasury
   reporting on the Army General Fund financial statements.

   We performed this audit from May through December 2005 in accordance with
   generally accepted government auditing standards.

   Computer-Processed Data. There are two streams of data feeding the cross-
   disbursing and TBO/TFO processes: the Headquarters Accounting and Reporting
   System (HQARS) and the Defense Cash Accountability System (DCAS).
   Disbursing stations and accounting stations electronically submit expenditure data
   to DFAS-IN. Expenditure data are entered into the HQARS expenditure
   processing modules where the data undergoes a series of internal edits. DCAS is
   the DoD-wide system for processing cross disbursements and collections. The
   system is designed to establish a transaction-level database for use in reconciling
   balances between DFAS field organizations and the Treasury. Treasury reporting
   information, such as that reported on the SOT, flows through HQARS. Detailed
   transactional support for the disbursement process, such as obligation documents,
   flows through DCAS.
   The Department of Defense Inspector General (DoD IG) has reported, and DoD
   has acknowledged, that complex, long-standing, and pervasive financial
   management system weaknesses prevent DoD from receiving an unqualified
   opinion on its financial statements. Because of the acknowledged unreliability of
   DoD financial management systems, we did not test the reliability of the
   expenditure accounting data submitted from field sites to HQARS or from field
   sites into DCAS. This type of examination would have required reconciling the
   data submitted to detail records that are only available at the submitting field
   sites. Therefore, we did not perform any specific tests regarding data reliability,
   and we



                                       15
    did not place any reliability on the dollar values of data submitted from DoD field
    accounting stations. Because we reviewed the processes DFAS-IN used and not
    the reliability of the data, this did not affect our overall audit conclusions.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Defense Financial Management high-risk area.


Prior Coverage
    During the last 5 years, the DoD IG issued one report on expenditure operations
    at DFAS-IN. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2005-087, “Departmental Expenditure Reporting at
    Defense Finance and Accounting Service Indianapolis,” June 27, 2005




                                        16
Appendix B. Glossary of Terms
   Accounting Station. An entity responsible for maintaining the accounting
   records of assigned fundholders.

   Appropriations. Statutory authorities to incur obligations and make payments
   from the U. S. Treasury for specified purposes.

   Budget Clearing Account. An account that is used as a holding account for
   various transactions. Such an account is sometimes shown as an “F3875”
   account.

   C5AS File. Listing of every TI 21 and TI 97 transaction received through the
   DFAS-IN Cross Disbursing In Branch up to 8 months old, whether or not they
   have been reconciled.

   C5BS File. A listing of every unreconciled transaction received through the
   DFAS-IN Cross Disbursing In Branch more than 8 months old where the values
   reported to the Treasury Department did not match the values reported to the
   DFAS-IN Cross Disbursing In Branch.

   Chargeback. The transfer of accountability for unsupported disbursements or
   collections from the accounting station to the disbursing station, using the
   departmental budget clearing account (F3875) of the disbursing station.

   Collection. A receipt of funds not resulting from the enactment of an
   appropriation by Congress.

   Cross-Disbursement. Disbursements and collections of funds of one DoD
   Component performed by a station associated with another DoD Component.

   Cross Disbursing In. Disbursements and collections made by stations not
   affiliated with DFAS-IN citing TI 21 appropriations and TI 97 appropriations
   with Army limits.
   Cross Disbursing Out. Disbursements and collections made by stations
   affiliated with DFAS-IN citing non-TI 21 appropriations and non-TI 97
   appropriations with Army limits.

   Defense Cash Accountability System. The system developed by DFAS to
   handle the flow of all cash transactions between disbursing/entitlement stations
   and accounting centers/stations that record the transactions in accounting records.

   DFAS-IN Network. Accounting stations and disbursing stations that fall under
   the accounting control of DFAS-IN. DFAS-IN is one of five DFAS Accounting
   Centralized Field Sites (Centers).

   Disbursement. Payment of a legal liability of the U.S. Government that
   decreases the accountability of the disbursing station making the disbursement.



                                       17
Disbursing Station. An activity making disbursements and collections for
another DoD Component.

Expenditure. A payment by check or equivalent action that constitutes a charge
against the appropriation cited.

Fund Balance with Treasury. The appropriation-level balance of funds reported
on the Army General Fund financial statements.

In-Transit Disbursements. Disbursements that have been reported by a
disbursing station, through a paying center, to the Treasury Department and
charged against the Department’s fund balances, but have not yet been received
or processed by the applicable accounting station for recording against the
applicable corresponding obligation.

Negative Unliquidated Obligations. Transactions posted to the accounting
database which create the following conditions: disbursements greater than
obligations, stand-alone disbursements, or credit obligations.

Reject. A disbursement or collection transaction that is returned to the disbursing
station without a transfer of accountability.

Statement of Transactions. Reports that provide the detailed backup
information for disbursement transactions. Accounting stations prepare these
reports monthly for submission to DFAS.

Suspense Account. A temporary account in which entries of credits or charges
are made until their proper disposition can be determined.

TI 21. The code designated by the Treasury to denote funds made available to
the Department of the Army.

TI 97. The code designated by the Treasury to denote funds that have been made
available to Defense agencies and activities.

Transactions by Others (TBO)/Transactions for Others (TFO). TBO is the
term used by an activity describing disbursements or collections processed by
another activity. TFO is used by an activity indicating collections or
disbursements of funds processed for another activity.

Unmatched Disbursement. A disbursement that an accounting station has
received for which it has sufficient information to allow it to attempt to match the
disbursement with an existing obligation in its accounting records, but is unable
to do so. An overaged unmatched disbursement is a disbursement that has not
been matched with an existing obligation within 180 days.

Uncleared File. An internal DFAS-IN data file containing a cumulative listing of
TBO/TFO transactions that have not yet cleared. This file is used by the affected
parties to research why a record has not yet cleared.




                                     18
Appendix C. Expenditure Transaction Processing

Expenditure Transactions
    There are two primary forms of expenditure transactions: cross-disbursing and
    TBO/TFO. Each has a separate data flow.

    Cross-Disbursing. A cross-disbursement occurs when a disbursing office makes
    a payment for an accounting station that reports to a DFAS center other than the
    center to which the disbursing office reports or when a non-DoD Federal agency
    makes a payment charged to a DoD account. For example, DFAS-IN cross-
    disbursement expenditure transactions originate within the DFAS Denver and
    DFAS Cleveland networks, or in non-DoD agencies such as the State Department
    and the U.S. Treasury.

    Cross Disbursing Out transactions are disbursements or collections made by
    stations affiliated with DFAS-IN citing appropriations other than TI 21 and TI 97
    appropriations with Army limits. The DFAS-IN Expenditure and Reporting
    Division, Cross Disbursing Out Branch, manages the Unreconciled Input
    Difference Report and the Transmittal Letters for Army cross-disbursements. The
    Cross Disbursing Out Branch performs administrative actions pertaining to Army
    disbursing stations and serves as the DCAS liaison.

    Cross Disbursing In transactions are disbursements or collections made by
    stations not affiliated with DFAS-IN, citing TI 21 appropriations and TI 97
    appropriations with Army limits. The DFAS-IN Expenditure and Reporting
    Division, Cross Disbursing In Branch, monitors and processes transactions made
    from other Services to the Army. The branch manages statement of transactions
    (SOT) and detail-level information from other DoD offices and non-DoD
    agencies, performs SOT-to-detail reconciliations, and provides cross-
    disbursement reports used for other purposes.

    Once a station outside of the DFAS-IN network makes a disbursement or
    collection, the summary disbursement or collection information is forwarded to
    DFAS-IN through the monthly SOT prepared and submitted by the station’s
    parent DFAS Center. DFAS Cleveland, DFAS Denver, and the State Department
    each provide DFAS-IN with a file containing the SOT information relevant to
    TI 21 for that month. This information matches information already provided to
    the Treasury in the Treasury reporting process for that DFAS Center. The SOT
    information is then loaded into the expenditure modules of HQARS for further
    processing. DFAS-IN loads detail information not loaded into DCAS by the
    disbursing station.

    Cross-disbursing transaction data are stored primarily in the “C5AS” file and the
    “C5BS” file. The C5AS file contains all SOT and detail information up to
    8 months old received by the Cross Disbursing In Branch. The information
    consists of reconciled and unreconciled transactions for both TI 21 and TI 97.
    The C5BS file is a cumulative list of only unreconciled TI 21 and TI 97
    transactions more than 8 months old where the SOT and the detail information do


                                       19
    not agree at the appropriation, limit, reimbursement designator, other service, or
    disbursing date levels. The C5BS file identifies transactions that remain
    unresolved longer than the DoD Financial Management Regulation (DoD FMR)
    allows.

    TBO/TFO. A TBO/TFO disbursement occurs entirely within the DFAS-IN
    network when a disbursing station makes a disbursement using TI 21 funds under
    the accounting control of an accounting station in the DFAS-IN network. The
    Analysis and Reconciliation Directorate, Operational/Network Analysis Branch,
    is responsible for managing and clearing these TI 21 transactions originating
    within the DFAS-IN network.

    DFAS-IN reports disbursements on the monthly SOT. DFAS-IN controls the data
    files containing this information within HQARS. Detail information is loaded
    through the 304 reporting process, outside of DCAS. DFAS-IN uses the
    304 reporting process to clear TBO/TFO transactions.

    The “TBO/TFO Uncleared File,” holds TBO/TFO transactions prior to clearing.
    The Uncleared File is a cumulative list of transactions not yet completely matched
    to detail information. The file contains departmental expenditure transactions
    within the DFAS-IN network and Cross Disbursing Out chargebacks. It also
    contains transactions from Defense agencies, which are not departmental
    expenditure transactions.

Transaction Clearing
    Policy. The DoD FMR requires that a disbursement be matched to its
    corresponding detail-level obligation and be recorded as promptly as current
    systems and business practices reasonably permit. Disbursements are considered
    “in-transit” when they have been recorded by the disbursing office, routed
    through a paying center to the Treasury, and charged against the department’s
    fund balances, but:
           •   have not yet been received by the applicable accounting station, or

           •   have been received by the applicable accounting station but not yet
               processed against the accounting station’s database, or

           •   it has been determined that there is insufficient information to process.

    A disbursement transaction received and accepted by an accounting station but
    not matched to the correct detail obligation is an unmatched disbursement
    (UMD). A disbursement that has been matched to the cited detail obligation, but
    the disbursement amount exceeds the amount of the obligation, is considered a
    negative unliquidated obligation.

    Transaction Clearing. A transaction is considered “cleared” when the summary
    information from the monthly SOT exactly matches the detail obligation
    information (line of accounting and amount) from DCAS. The matching of
    summary information to detail information is primarily automated for both


                                        20
    processes, unless research is required to clear the transaction. However, data file
    reconciliations are sometimes necessary. If matching does not occur, in whole or
    in part, then the unmatched portion remains uncleared and needs to be resolved in
    accordance with prescribed policy.


Clearance Actions
    Reconciliations. DFAS-IN procedures require the reconciliation of disbursement
    transactions with monthly SOT data citing Army funds that are reported to
    Treasury. The performance of required reconciliations serves as a means to clear
    transactions unresolved through normal automated processes. However,
    DFAS-IN acknowledged it had not performed cross-disbursing reconciliations in
    accordance with DoD guidance. The DFAS-IN Expenditure and Reporting
    Division should institute procedures to ensure it performs reconciliations of
    expenditure transactions on a monthly basis.

    Clearing Actions. The DoD FMR provides alternate clearing actions for
    transactions that do not clear through normal automated procedures.

            Chargebacks. A chargeback is the transfer of accountability for
    unsupported disbursements or collections, from the accounting station to the
    disbursing station, using the disbursing station’s budget clearing account.
    Chargebacks are reversed out of the appropriation originally cited and recorded in
    the disbursing officer’s budget clearing account. However, certain types of
    transactions are not eligible for chargeback, such as:

                   •   transactions originating outside of DoD;

                   •   transactions aged 120 days, if from a pay station collocated
                       with the disbursing station, or aged 180 days, if from a pay
                       station not collocated with the disbursing station, identified as
                       either a UMD or a negative unliquidated obligation;
                   •   transactions less than $2,500, if originating in FY 2001 and
                       beyond, citing an accounting station’s TI, appropriation, and
                       station unless they pertain to travel advances and settlements,
                       civilian or military pay entitlements, and Foreign Military
                       Sales transactions;

                   •   transactions less than $250 originating between FY 1997 and
                       FY 2000;

                   •   suspected fraudulent transactions, until declared legally
                       fraudulent by the Defense Criminal Investigative Service;

                   •   rejected TBO/TFO transactions;




                                         21
               •   summary to detail differences originating prior to July 2001;
                   and

               •   transactions within 30 days of a legitimate written request for
                   documentation.

        Establish Obligations. The establishment of obligations is applicable to
transactions identified as UMDs. The appropriation or fund holder must establish
a matching obligation within 10 calendar days after notification of a UMD and
efforts to correct the condition have failed. The DoD FMR, volume 3, chapter 11,
requires the accounting station to record an obligation if the appropriation
manager/fund holder does not establish an obligation.

        Discontinued Research. The accounting station must continue to
research and correct uncleared transactions that cannot be charged back to the
submitter. For these transactions, a written request to discontinue research efforts
can be submitted. Research must continue until written approval is provided.
Requests to discontinue further research efforts may be prepared when research
steps cannot be completed because:

               •   there is missing or insufficient documentation,

               •   steps to request or obtain the missing documentation or
                   clarification of the insufficient documentation were taken but
                   have not produced results, and

               •   further efforts appear fruitless and not cost-effective.

The Assistant Secretary of the Army (Financial Management and Comptroller)
approves requests to discontinue research efforts for transactions greater
than $2,500. The funded budget office approves requests to discontinue further
research for transactions less than $2,500. This action occurs once transactions
have been validated and other procedural actions have been taken. It does not
apply to Foreign Military Sales transactions, transfer accounts, or an
appropriation not allocated to the Department of the Army.




                                     22
Appendix D. Fund Balance With Treasury
   Disbursements and collections accounted for during the monthly expenditure
   operations cycle play a significant role in the Fund Balance with Treasury account
   balance presented on the Army General Fund financial statements, as well as
   required note disclosures related to Fund Balance with Treasury and problem
   disbursements.

   Fund Balance With Treasury. DFAS-IN uses the results of the monthly
   expenditure operations cycle, combined with other processes in the monthly
   budget execution cycle, as a tool to reconcile the departmental books with the
   Treasury Trial Balance. Expenditure and budget execution data make up the
   departmental books. Because the Treasury does not have an independent source
   of data, the Treasury Trial Balance is an appropriation-level summary of the SOT
   provided by field accounting stations. At fiscal year-end, the Fund Balance with
   Treasury account balance derived from the departmental books and reported on
   the Balance Sheet must equal the Treasury Trial Balance. Differences are
   disclosed in Note 3.A, “Fund Balance with Treasury,” as a net adjustment for
   unsupported undistributed disbursements and collections to bring the Fund
   Balance reported by Army into agreement with Treasury.

   Problem Disbursements. Portions of the cross-disbursing and TBO/TFO files
   are also used to generate problem disbursement reports. Note 3.A to the financial
   statements lists three categories of problem disbursements generated, in part, from
   data files used in departmental expenditure operations: Absolute Unmatched
   Disbursements, Negative Unliquidated Obligations, and Net In-Transit
   Disbursements. The note values are taken entirely from summarized spreadsheets
   that the Expenditure and Reporting Division provides to the Directorate for
   Departmental Accounting, Audited Financial Statements Division. For FY 2004,
   the note value presented for Absolute Unmatched Disbursements for
   September 2004 did not match the value provided by the Expenditure and
   Reporting Division. The Audited Financial Statements Division understated the
   value by approximately $58 million because the wrong value was used from the
   spreadsheet. The Audited Financial Statements Division later acknowledged that
   an error was made in the FY 2004 note. The FY 2005 note reflected the correct
   amount and an explanation of the FY 2004 error.




                                       23
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget


Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services




                                          24
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        25
Defense Finance and Accounting Service
Comments




                      27
28
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Carmelo G. Ventimiglia
Stephen C. Borushko
Paul C. Wenzel
Dale E. Coy
Craig W. Zimmerman
Andrew D. Gum
Michael B. Vandesteene
Michael G. Jarvis
Virginia M. Peyla
